OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/IRAQ’S
BASIC EDUCATION
ACTIVITIES
AUDIT REPORT NO. E-267-06-001-P
December 20, 2005




BAGHDAD, IRAQ
Office of Inspector General




      December 20, 2005


      MEMORANDUM

      TO:                      USAID/Iraq Mission Director, Dawn M. Liberi

      FROM:                    Regional Inspector General, Baghdad, Nancy J. Lawton /s/

      SUBJECT:                 Audit of USAID/Iraq’s Basic Education Activities
                               (Report No. E-267-06-001-P)

      This memorandum transmits our final report on the subject audit. In finalizing the report,
      we considered your comments on the draft and have included them, without attachments,
      as Appendix II.

      The report contains one recommendation to develop a plan for obtaining necessary
      computer equipment or discontinuing the management information system program.
      Based upon your comments and the documentation provided including an
      implementation plan to obtain necessary equipment, a management decision has been
      reach and final action has been taken.

      I want to express my sincere appreciation for the cooperation and courtesies extended
      to my staff during this audit.




U.S. Agency for International Development
USAID/IRAQ/RIG
APO, AE 09316
CONTENTS
Summary of Results ....................................................................................................... 1

Background .................................................................................................................... 2

Audit Objective .................................................................................................................. 2

Audit Findings ................................................................................................................. 3

             Computer Equipment to Operate Information
             System Needs to Be Available ........................................................................... 5

Evaluation of Management Comments ....................................................................... 10

Appendix I – Scope and Methodology ........................................................................ 11

Appendix II – Management Comments ....................................................................... 13

Appendix III – List of Tasks, Expected Outputs and Status...................................... 14
SUMMARY OF RESULTS
The Regional Inspector General in Baghdad, Iraq conducted this audit to determine if
USAID/Iraq’s basic education activities have progressed toward their intended outputs.
Of the 82 intended outputs included in the June 2005 USAID-approved implementation
plan, work had commenced—and progress was being made—on 33 outputs; work was
planned—but had not yet started—on 22 outputs; and a revision of the implementation
plan was approved by USAID/Iraq, which deleted the remaining 27 outputs. The Mission
expected that work on the 33 outputs in progress and the 22 outputs yet to be started
would be completed by June 2006. (See page 3.)

The initial planned funding for the contract between Creative Associates International,
Inc. (Creative), the primary implementing partner, and the Mission totaled $191.4 million
and provided for 82 outputs. But as of September 2005, only $51.8 million had been
obligated. Mission management stated that it was unlikely that the entire contract with
option years would be funded. For this reason, Creative submitted, and USAID
approved, a revised implementation plan that included deleting 27 of the 82 outputs in
order to more accurately reflect what could be achieved given the revised funding
levels. 1 (See page 3.)

One issue noted was that the Ministry of Education did not have appropriate computer
equipment to operate an education management information system being developed
by Creative. To address the issue, we are recommending that the Mission develop a
plan to ensure appropriate computer equipment is available or discontinue the funding of
the program. (See page 5.) The Mission accepted the recommendation and took
appropriate corrective actions, which include the development of an implementation plan
to ensure the necessary computer equipment was obtained. Based on the actions taken
by the Mission, we consider that a management decision has been reached and final
action has been taken. (See page 10.)

Management comments are included in their entirety in Appendix II. (See page 13.)




1
    This revised plan was dated September 15, 2005.


                                                                                        1
BACKGROUND
The Iraqi educational system used to be among the best in the region; educational
reforms during the 1970s and 1980s brought about high literacy rates, which was
evident in the adult population. However, over the past two decades, wars, sanctions,
and harsh economic conditions took a toll on the educational system causing it to
deteriorate significantly. In 2004, the youth (aged 15-24) literacy rate was 74 percent,
which was slightly higher than the literacy rate for the population at large. However, it
was lower than literacy rates for the age group 25-34, indicating that the younger
generation lagged behind its predecessors on educational performance. The literacy
rate for women in Iraq had stagnated and, in some governorates, 2 the level of female
illiteracy was very high. The gender gap in literacy was diminishing, but this was due to
a drop in the literacy levels of men rather than gains among women. 3

In support of the Iraqi Interim Government, in 2003 USAID/Iraq and its partners began
revitalizing public education in Iraq by addressing urgent needs while laying the
foundation for sustainable, decentralized quality schooling at the primary and secondary
levels. USAID/Iraq’s prior education program, Revitalization of Iraqi Schools and
Stabilization of Education (RISE), conducted in the immediate postwar period focused
on revitalizing public education in Iraq by addressing the urgent needs of schools at the
primary and secondary levels. RISE was an emergency program that emphasized
getting children to return to school.

The Mission’s current “Support to Iraqi Basic Education” program, which followed the
RISE program, works closely with the Ministry of Education and local Directors General
of Education throughout Iraq. The Basic Education program seeks to build the capacity
and increase the quality of the country’s educational system. USAID/Iraq partnered with
Creative Associates International, Inc. to implement the program during the time period
of July 1, 2004 to June 30, 2006; this audit covered funding of $51.8 million.


AUDIT OBJECTIVE
As part of its fiscal year 2005 annual audit plan, the Regional Inspector General in
Baghdad conducted this audit to answer the following objective:

        Have USAID/Iraq’s basic education activities progressed toward their
        intended outputs?

Appendix I contains a discussion of the audit’s scope and methodology.




2
  Iraq is divided into 18 governorates. Each governorate has one directorate, except for the
   Baghdad governorate, which is divided into four directorates, for a total of 21 directorates in
   Iraq. Each directorate has a Director General of Education, who works under the Minister of
   Education.
3
  United Nation’s Iraq Living Conditions Survey 2004: Volume II Analytical Report, pg. 91.


                                                                                                     2
AUDIT FINDINGS
USAID/Iraq’s basic education activities had progressed toward 33 of the 82 intended
outputs in the “Support to Iraqi Basic Education” program.

Of the 82 intended outputs included in the June 2005 USAID-approved implementation
plan, work had commenced—and progress was being made—on 33 outputs; work was
planned—but had not yet started—on 22 outputs; and a revision of the implementation
plan was approved by USAID/Iraq, which deleted the remaining 27 outputs. 4 The
Mission expected that work on the 33 outputs in progress and the 22 outputs yet to be
started would be completed by June 2006. A complete listing of the tasks, intended
outputs, and status can be found in Appendix III. 5

The original contract that Creative Associates International, Inc., USAID/Iraq’s
implementing partner, signed with the Mission totaled $191.4 million and included a
base period and options as follows:

                                                           Funding
                                                          (millions)

           Base Period                                        $56.5
           Base Period Option                                  52.2
           Option Year One                                     24.3
           Option Year Two                                     28.9
           Option Year Three                                   29.5

           Total                                             $191.4


As of July 31, 2005, of the original $56.5 million, only $51.8 million had been obligated
(a shortfall of $4.7 million) and only $15.5 had been disbursed. USAID/Iraq was not
certain if the remaining $139.6 million would eventually be obligated. 6 In addition,
security costs originally estimated at $4 million doubled to approximately $8 million.
Hence, Creative revised the implementation plan to more accurately reflect what
activities and intended outputs could be met given the funding.

Creative had rescheduled the implementation of activities focusing on many intended
outputs. Some implementation delays occurred due to factors beyond the control of

4
  These 27 outputs were deleted in a September 15, 2005 USAID-approved revision to the
  implementation plan. According to the Mission, these outputs were deleted due to a lack of
  funding which arose because 1) costs were higher than expected (e.g. security costs almost
  doubled and other costs were higher as well) and 2) the Iraq Reconstruction Management
  Office (IRMO), which coordinates the U.S. reconstruction program in Iraq, reprogrammed much
  of the funds originally planned for USAID/Iraq’s basic education activity.
5
  Appendix III was auditor-generated based on review of the implementation plans and supporting
  documentation.
6
  As indicated in footnote 4 above, the IRMO reprogrammed much of the funds originally planned
  for this activity. Mission officials were not certain whether funds would be made available in the
  future for this activity.

                                                                                                  3
Creative or the Mission. Security was a major concern in Iraq and prevented some
activities from taking place in the timeframe originally anticipated. The security situation
of the country had also created staffing problems for Creative as it had not been able to
fill key positions. In addition to delays due to security concerns, there were delays
caused by the Ministry of Education (MOE), which was sometimes slow to provide
approval or needed information within the timeframe.

In support of the Iraqi Government, USAID/Iraq and its partner, Creative, were working
together in the “Support to Iraqi Basic Education” program. Creative’s activities sought
to improve the quality of education, as well as increase access to education, by focusing
on the following areas:

   •   Ministry of Education capacity building,
   •   Model school program,
   •   Engage children in learning from an early age,
   •   Training of secondary school teachers,
   •   Distribution of school materials and supplies (including student supply kits and
       model school equipment procurement), and
   •   Refurbishment of schools through a small grants program.

Each area with intended outputs is summarized in the table below.

                          Status of Intended Outputs by Area
       Area               No. of        No. Showing      Planned              Deleted Per
                        Intended         Progress       Before June            Revised
                         Outputs                           2006                  Plan
Capacity Building           22               4               7                    11
Model Schools                9               3                3                    3
Early Learning               5               3               1                     1
Training                    26               6               10                   10
Procurement                 13               11               0                    2
Refurbishment                7                6               1                    0
      TOTAL                 82               33              22                   27

Ministry of Education Capacity Building – Progress had been made toward 4 of the
22 intended outputs in this area. Creative deleted 11 intended outputs under the revised
implementation plan, while the remaining 7 intended outputs were to be achieved before
the end of the contract date. The intended outputs in progress are set forth in the
succeeding paragraphs.

One task performed was the training of finance managers; 58 out of the targeted 78
MOE finance managers were trained in Amman, Jordan on topics ranging from “what is
a team?” to international best practices in government budgeting. During a meeting with
a MOE official in south central Iraq, a training participant was brought into the meeting to
discuss the training and his perceptions. He stated that the training was quite useful
and he would be able to apply what he learned to his work. Specifically, he stated that
the concept of the budget being a public document open for everyone to see, as well as
the idea of collectively working in groups to solve problems, would be applicable.




                                                                                           4
One issue that the Mission and Creative encountered while trying to build capacity in the
MOE was the personnel changes among ministry officials. The appointed positions
were subject to change at the discretion of the elected officials. In August 2005, the
Ministry of Education replaced 11 Directors General with new personnel. As a result,
the relationships that had been built with the former staff would have to be rebuilt with
new staff.

Creative had provided four long-term international specialists to the MOE, but three of
these specialists departed between May and July 2005. At the time of the audit,
Creative was still providing one long-term international specialist to the MOE and was
working to fill the vacancies.

Creative subcontracted with a company in Amman, Jordan to develop an education
management information system. The work began in January 2005, but the system was
not yet complete at the time of the audit. Creative management stated that delays in
getting information from the MOE with regards to the data fields to be included in the
system had hindered the completion of the project. Originally the project was scheduled
to be completed over a period of 41 weeks. In the revised implementation plan, the new
timeframe for completion of the project was June 2006.

In addition to developing an education management information system, another
intended output was the training of an Iraqi technical team. Four of the eight MOE
members who were to form the Iraqi technical team for the information system received
training in January 2005; the remaining four members were approved in August to
complete the Iraqi technical team.

Computer Equipment to Operate Information
System Needs to Be Available
The hardware required to operate the education management information system, being
developed by Creative as discussed in the preceding paragraphs, was not in place.
Mission management stated that originally the United Nations Educational, Scientific
and Cultural Organization (UNESCO) was to provide the computer equipment
necessary to operate the education management information system. UNESCO had
provided servers in Baghdad, but they were not yet installed even though UNESCO had
provided the funding to the MOE for the installation. Mission management stated that a
meeting would be held with all partners involved to discuss the computer hardware
situation and possible resolutions to the problem.

If the computer equipment requirements are not met, the information system will not be
operational; therefore USAID planned funding of $1.3 million on the project would be
wasted. In order to address the issue, we are making the following recommendation:

       Recommendation No. 1: We recommend that USAID/Iraq develop a
       plan to ensure the computer equipment required is in place to
       operate the education management information system or
       discontinue USAID funding of the project.




                                                                                        5
Creation of Model Schools – The activity of creating model schools was progressing
toward meeting three out of nine intended outputs. Three of the intended outputs were
deleted in the revised implementation plan, and Creative had planned activities for three
intended outputs to take place before June 2006. A discussion of each intended output
in progress follows.

Model schools were to provide for community participation, training in modern
pedagogical (principles of teaching) methods for teachers, new teaching materials, and
specialized laboratory equipment. Creative reported the development of a plan to
include the methodology for the selection of model schools, the strategy for training
teachers, and the determination of the equipment needs. Of the 84 model schools to be
selected (two primary schools and two secondary schools in each of the 21
directorates), 72 had been selected by the Model School Committee and approved by
the MOE. The procurement process for the model schools (laboratory equipment,
computers, books, and desks) began in June 2005 and was expected to be completed
in January 2006.

                                                                  Photo, taken August
                                                                  24, 2005, of a computer
                                                                  literacy training class
                                                                  at a regional teachers
                                                                  training center in south
                                                                  central Iraq.




Engage Children in Learning from an Early Age – This activity was a collaborative
effort between the MOE, Creative, and a Jordanian subcontractor. Three of the five
intended outputs were in progress; the fourth output was deleted under the revised
implementation plan; and the activity regarding the fifth output was planned by Creative
to take place in November 2005. The following paragraph addresses the intended
outputs in progress.

A production team was established to develop a preschool television production of 13
modules on various topics, including the alphabet, counting, animals, and colors and
shapes. Three modules had been completed, with other modules in various stages of
the production process. The targeted completion date was December 2005. Six Iraqis
received training in the production of the television modules.




                                                                                             6
Training of Secondary School Teachers – This activity was designed to improve the
quality of education by providing in-service training to almost 50,000 teachers and
administrators, with the targeted breakout as follows:

    •   42,000 secondary school teachers,
    •   1,100 master trainers,
    •   3,000 administrators,
    •   2,400 teachers in 84 model schools, and
    •   84 model school administrators.

Training subjects included English, science, math, and computers as well as general
pedagogy. Progress had been made toward 6 of the 26 intended outputs. Of the
remaining 20 intended outputs, 10 were deleted from the revised implementation plan,
and 10 had planned future activities. Each intended output in progress is briefly set forth
in the succeeding paragraphs.




Photo, taken on August 24, 2005, of a renovated lecture hall in one of the regional teachers training
centers.

Master trainers received training in Amman, Jordan for both English (68 people trained
out of a target of 69 people) and computer literacy (54 people trained exceeded the
target of 46). The master trainers of English had begun training teachers at the regional
teacher training centers. During a site visit in August to the teacher training center in




                                                                                                   7
south central Iraq, both English and computer training classes were in session. 7 We
also viewed rehabilitated classrooms during the site visit to the center. Creative
reported that it had completed the renovation of six teacher training centers.

Based on a feasibility study, Creative reported working toward strengthening capacity at
the Institute of Training and Educational Development 8 by providing internet connectivity
and related material support. In addition, an evaluation instrument was developed to
measure the impact of training.

Procurement and Distribution of School Materials and Supplies – Activities were
taking place to accomplish 11 of the 13 intended outputs. The two remaining intended
outputs were deleted in the revised implementation plan. The paragraphs below outline
the status of the intended outputs in progress.

Creative reported that a procurement committee was formed, tenders were awarded,
and supplies were tracked with regards to school kits containing supplies for 10th to 12th
grade students. 9 Creative also reported that 504,458 of the expected 525,000 kits were
distributed to 2,244 schools; USAID/Iraq suggested that the remaining kits be distributed
to model schools when renovations are complete. The USAID/Iraq representative in
south central Iraq met with the headmasters of two schools to verify that they received
school kits and that the school kits were distributed to students. In both instances, the
headmasters verified that the kits were received and distributed. One headmaster
stated that excess kits were returned to the Director General, but he was unsure of the
exact number.

Procuring equipment for model schools was also in process. As stated previously in the
“Creation of Model Schools” section of this report, the procurement process for the
model schools (laboratory equipment, computers, books, and desks) began in June
2005 and was expected to be completed in January 2006. This activity with associated
intended outputs was reflected in two areas of the implementation plan.

Creative reported that the MOE has been involved in the procurement process, and the
MOE was providing input on the list of books and reference materials to be included in
the libraries. Creative also reported that they had involved the MOE in designing the
contents of the delivery and receiving forms as a method to strengthen the MOE
procurement capability. By involving the MOE in the design of the forms, Creative
hoped to have MOE buy-in to the process as well.

Creative coordinated procurement with other donors; for example, it coordinated with the
United Nations Children’s Fund regarding the distribution of school kits. The United
Nations Children’s Fund distributed school kits to primary schools, while Creative
distributed kits to secondary schools.


7
    The training for teachers in computer literacy classes began in August, after the July 31, 2005
    cut-off date, and therefore was not treated as having been in “progress” for purposes of this
    audit. The training for English teachers had begun in July, and was classified as in “progress.”
8
    The Institute of Training and Educational Development in Baghdad provides training for
    teachers.
9
    A school kit included the following supplies: a school bag, various exercise books, a drawing
    book, a language notebook, a drawing set, pencils, a pencil sharpener, an eraser, and a ruler.

                                                                                                  8
Refurbishment of Schools through Small Community Grants – Of the seven
intended outputs, Creative had made progress toward reaching six. The remaining
intended output had related activities planned to begin at a later date. All of the
intended outputs are discussed below.

The USAID approved implementation plan called for up to 400 10 schools to be
rehabilitated, with the main priority being the rehabilitation of “mud schools” 11 located in
rural areas. Creative reported that a committee was formed, criteria for school selection
had been developed, and 37 grants had been awarded for renovation. Creative
reported that the community involvement was strengthened through involving parent-
teacher organizations throughout the process of selecting schools. In addition, Creative
created a database, which included information relating to each of the renovated
schools.

The USAID/Iraq representative visited a mud school and found that the rehabilitation
was 80 percent complete. The new school would enlarge the classroom space by 75
percent and provide a nucleus for further improvements. One issue noted was that the
contractor had not received payment for the third phase of construction, which could
delay the completion of the school. Mission management stated that the contractor had
subsequently been paid. Contractors were paid after an evaluation was performed
when each milestone was reached in the construction of the school.




10
    Although the June 2005 implementation plan called for “up to 400” schools to be rehabilitated,
   Creative planned, with Mission approval, to rehabilitate approximately only 125 schools,
   including the 84 model schools to be renovated. Early in the program (December 2004/
   January 2005), the Mission and Creative decided that it would be better to do fewer grants
   which provided comprehensive rehabilitation than more grants with cursory rehabilitation. Other
   reasons for the reduction of schools were higher than anticipated security costs (an additional
   $4 million) and the $4.7 million funding shortfall discussed on page 3.
11
   Mud schools were constructed from mud and other perishable products.


                                                                                                9
EVALUATION OF
MANAGEMENT COMMENTS
In response to our draft report, USAID/Iraq accepted the recommendation and took
corrective action. Specifically, in response to Recommendation No. 1, Mission
management met with stakeholders and developed and implemented a plan to ensure
site preparation and installation of necessary computer equipment.

Based on the actions taken by the Mission to address the recommendation, we consider
a management decision to have been reached and final action taken.

Management’s Comments are included in their entirety in Appendix II. USAID/Iraq’s
management comments included supporting attachments, which are not included in this
audit report.




                                                                                 10
                                                                             APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General in Baghdad audited USAID/Iraq’s basic education
activities in accordance with generally accepted government auditing standards. The
purpose of the audit was to determine if the Mission’s basic education activities have
progressed toward their intended outputs.

USAID/Iraq’s education sector projects were being carried out primarily through Creative
Associates International, Inc. (Creative). Creative had received two contracts through
USAID/Iraq; this audit focused on the second contract, valued at approximately $56.5
million, which became effective on July 1, 2004 and was to expire on June 30, 2006.
The primary focus of this contract was to improve the quality of education delivery in the
country and increase the access to education. As of July 31, 2005, cumulative
obligations and disbursements under the contract totaled approximately $51.8 million
and $15.5 million, respectively. Mission management stated that the obligations may
not increase to the full value of the contract due to other priorities.

The audit focused on determining whether the education projects carried out by Creative
under its USAID-funded contract were progressing toward their intended outputs as of
the audit cut-off date (i.e., July 31, 2005). Our review of the education projects involved
an assessment of whether the projects were making progress toward their intended
outputs. These assessments were based, in part, on progress reports issued by
Creative and other pertinent documentation, as well as on input provided by the
Mission’s Education Office.

In addition to the above, the audit included an examination of Mission management
controls relating to the monitoring of activities performed under the contract.
Specifically, these controls included:

       Reviewing Creative’s weekly and monthly progress reports

       Performing periodic field visits to the project sites to observe work achieved

       Reviewing documentation prepared by Creative regarding its efforts to identify,
       plan and implement appropriate activities under its projects

       Examining and certifying Creative’s vouchers

The audit fieldwork was performed from August 2 to September 20, 2005, and was
limited to interviews with key technical staff and a review of relevant performance and
financial documents, including supporting documentation as requested based on a
judgmental selection. In addition, site visits were made to two education activities in the
Al Hillah area, and a meeting took place with a MOE official in Al Hillah. Due to security
restrictions at the time of the fieldwork, the audit team was not able to visit additional
project sites as we had intended.




                                                                                        11
                                                                             APPENDIX I


Methodology
In answering the audit objective, we reviewed available program documents furnished
by the Mission and the contractor, Creative. This documentation included copies of the
contract and modifications, photos, Creative’s weekly and monthly performance reports,
and site visit reports. In addition, we obtained further information through interviews with
Mission and Creative staff on the status of individual projects. These interviews were
conducted either in person or via e-mail.

In assessing whether the projects were achieving their intended outputs, we reviewed
the status of each project as of the audit cut-off date (July 31, 2005). We relied on a
review of pertinent documentation and interviews with USAID and Creative staff. We
judgmentally selected significant milestones for intended outputs and reviewed
supporting documentation. We kept abreast of any further developments subsequent to
our cut-off date impacting on our initial conclusion.

As part of our initial planning work, we examined a prior audit performed by the USAID
Office of Inspector General covering a previous contract between the Mission and
Creative to identify any problems pertinent to the design of this audit. In addition, we
performed a limited assessment of the procedures and management controls in place at
the Mission for monitoring its education contracts to gain an understanding of the
Mission’s systems and determine the extent of testing required.




                                                                                         12
                                                                           APPENDIX II




MEMORANDUM
TO:                   Nancy Lawton, Regional Inspector General/Iraq
FROM:                 Dawn Liberi, USAID/Iraq Mission Director/s/
SUBJECT:              Audit of USAID/Iraq’s Basic Education Activities (Report No. E-
                      267-06-00X-P)
DATE:                 November 12, 2005



USAID appreciates the opportunity to comment on the draft audit report and shares your
interest in ensuring that USAID/Iraq’s basic education activities progress toward their
intended results.

Recommendation no. 1: that USAID/Iraq develop a plan to ensure the computer
equipment required is in place to operate the education management information system
(EMIS) or discontinue the funding of the project.


Mission Response: This recommendation has already been addressed. USAID convened all
EMIS stakeholders, including representatives from the MOE, UNESCO, UNICEF,
Microsoft, Creative and its EMIS subcontractor—Primus, on October 1-2, 2005. At this
meeting, all the necessary hardware was identified and an implementation plan (see
Attachment A) was developed and put into place to ensure that site preparation and
installation are completed prior to deployment of the system.
Based on the above discussion, Mission requests that Recommendation no. 1 be closed upon
report issuance.




                                                                                        13
                                                                                  APPENDIX III


             List of Tasks, Intended Outputs, and Status for
                  Creative Associates International, Inc.
   Task Description            Intended Output           Status as of July 31,     Progressing
                                                                 2005                towards
                                                                                    intended
                                                                                     outputs

Activity A - Ministry of Education (MOE) Capacity-building Activity
Task A.1 - Provide long- Five international            One long-term specialist   Yes
term technical           specialists provided          had been provided
specialists
                         Six Iraqi specialists         Activity was to be         Deleted
                         provided                      conducted November         See note 1 on
                                                       2004 through May 2006      pg 22.
Task A.2 - Needs          Needs assessment of          Activity was to be         Deleted
assessment                capacity-building program    conducted December
                          requirements conducted       2004 through June 2006
Task A.3 - MOE staff      83 Directors of Planning,    Activity was to be         Deleted
training / Management     Statistics, and Program      conducted in June 2005
Development               Evaluation trained
                          90 Directors of              Activity was to be         Deleted
                          Management,                  conducted in June 2005
                          Administration,
                          Procurement, and HR
                          trained
                          78 Directors of Finance,     58 Finance Managers        Yes
                          Budget, and Accounting       were trained in Amman,
                          trained                      Jordan
                          65 Directors General of    Activity was to be       Deleted
                          Examination and Evaluation conducted in August 2005
                          trained
                        20 MOE Program and             Activity was to be      Planned
                        Management Directors           conducted in the        See note 2 on
                        General and one Ministry of    December 2005 to        pg 22.
                        Finance personnel attended     February 2006 timeframe
                        workshop on strategic
                        planning
                        20 Program and                 Activity was to be         Planned
                        Management Directors           conducted in January,      See note 2 on
                        attended workshop on           March, and May 2006.       pg 22.
                        modern concepts of public
                        management
Task A.4 - Workshop for 54 Directors General of        Activity was to be         Deleted
directors general       Examinations participated      conducted in July 2005
                        in workshop
Task A.5 - Study tour for 50 Ministers and Directors   Activity was to be         Planned
leadership                General participated in      conducted in November
                          study tours                  2005 to February 2006
                                                       timeframe




                                                                                            14
                                                                               APPENDIX III


   Task Description           Intended Output          Status as of July 31,     Progressing
                                                               2005                towards
                                                                                  intended
                                                                                   outputs

Task A.6 – On-the-job    Three short-term on-the-job Activity was to be         Deleted
training development     internship programs         conducted March 2005
program                  developed                   through July 2005
Task A.7 -              Selected senior and mid-    Activity was to be         Deleted
International/regional  level managers participated conducted through the life
educational conferences in conferences              of the project
Task A.8 - Symposium     100 participants attended   Activity was to be      Planned
on national education    symposium on national       conducted in March 2006
reform                   education reform
Task A.9 -               Media plan developed        Activity was to be         Deleted
Strengthening MOE        which includes              conducted May 2005
media and public         implementing educational    through September 2005
information capability   information campaign
Task A.10 - Strengthen MOE personnel who are        Activity was to be          Deleted
MOE international donor engaged in management of conducted December
coordination            international donor efforts 2004 through June 2006
                        trained
Task A.11 - Develop      Personnel provided to keep Activity was to be          Deleted
MOE website              the website current        conducted January 2005
                                                    through June 2006
Task A.12 - Develop an Software developed              A subcontractor began     Yes
education management                                   work on the information
information system                                     system in January 2005.
                                                       Creative management
                                                       stated that the system is
                                                       not yet complete due to
                                                       delays in getting
                                                       information from the MOE
                                                       as to the data to be
                                                       included in the
                                                       information system.
                         Eight Iraqi participants      Four participants had     Yes
                         received training to form the received training.
                         Iraqi Technical Team
                         Consultant provided to      Activity was to be         Planned
                         perform quality assurance   conducted in September
                                                     2005 to June 2006
                         MOE staff trained           Activity was to be         Planned
                                                     conducted March to June
                                                     2006
Task A.13 - Capacity   20 staff members of the       Activity was to be         Planned
building program in    Director General for          conducted in November      See note 2 on
curriculum development Curriculum Development        2005.                      pg 22.
                       trained




                                                                                          15
                                                                                   APPENDIX III


   Task Description            Intended Output             Status as of July 31,    Progressing
                                                                   2005               towards
                                                                                     intended
                                                                                      outputs

Activity B - Creation of Four Model Schools in Each Education Directorate
Task B.1 -                Plan developed to include   Plan developed         Yes
Requirements analysis the methodology for
and planning              selecting school locations,
                          the strategy for training
                          teachers, and equipment
                          needs determined
Task B.2 - Site selection 84 model schools selected 72 schools were selected Yes
and model school roll-                                and approved
out
Task B.3 - Model school 84 model schools              Activity was to be     Planned
renovation                renovated                   conducted August to
                                                      November 2005.
Task B.4 - Procurement Equipment procured                Meetings were held with Yes
of learning resources for                                the MOE regarding
model schools                                            specifications of
                                                         equipment needed.
Task B.5 - Training       Teachers and                   Activity was to be          Planned
principals and teachers   administrative staff trained   conducted March through
                                                         August 2005. Creative
                                                         rescheduled the activity to
                                                         be conducted November
                                                         2005 through February
                                                         2006.
Task B.6 - Instruction    A full year of academic        Activity was to be       Deleted
                          courses took place             conducted through the
                                                         2005 to 2006 school-year
Task B.7 -                The model schools served       Activity was to be       Deleted
Establishment of          as training centers to other   conducted September
information and           schools                        2005 through June 2006
communication
technology training
centers
Task B.8 -                Evaluation performed      Activity was to be       Planned
Measurement of                                      conducted August 2005.
effectiveness                                       Creative rescheduled the
                                                    activity to be conducted
                                                    October 2005 through
                                                    June 2006.
Task B.9 - Public        Public information program Activity was to be       Deleted
information effort       developed                  conducted throughout the
                                                    academic year.
Activity C - Engage Children in Learning from an Early Age
Task C.1 - Establish the Production team and        Production team and      Yes
production team and      steering committee         steering committee were
steering committee       established                established




                                                                                               16
                                                                                      APPENDIX III


   Task Description            Intended Output               Status as of July 31,     Progressing
                                                                     2005                towards
                                                                                        intended
                                                                                         outputs

Task C.2 - Preschool      13 modules developed             Three modules were       Yes
television production                                      complete: the counting
                                                           theme, the animal theme,
                                                           and the community
                                                           helpers theme.
Task C.3 - Activity       10,000 activity booklets         Activity was to be       Planned
booklets                  printed and distributed          conducted July 2005.
                                                           Creative rescheduled the
                                                           activity to be conducted
                                                           November 2005.

Task C.4 - Training and   Five to six Iraqi personnel      Six Iraqi staff received   Yes
capacity building         trained                          training
Task C.5 - Tracking       Iraqi firm contracted to track   Activity was to be         Deleted
public receptivity        public reactions to the          conducted December
                          television programs              2004 through October
                                                           2005
Activity D - Training of Secondary School Teachers
Task D.1 - Training       69 master trainers trained in 68 master trainers had     Yes
trainers in academic      English who trained 6,000     been provided instruction.
subjects                  English teachers



                          Up to 10,000 ESL           Training began at the            Yes
                          secondary teachers trained regional teacher training        See note 2 on
                                                     centers                          pg 22.




                          75 master trainers trained in Activity was to be          Planned
                          science                       conducted June through
                                                        July 2005. Creative
                                                        rescheduled the activity to
                                                        be conducted November
                                                        2005.
                          12,000 secondary teachers Activity was to be                Planned
                          trained in science        conducted December                See note 2 on
                                                    2005 to March 2006                pg 22.

                          46 master trainers trained in Activity was to be            Deleted
                          math who trained 6,000        conducted June through
                          math teachers                 July 2005

                          46 master trainers trained in Activity was to be            Deleted
                          social studies who trained    conducted June through
                          8,000 social studies          July 2005
                          teachers




                                                                                                17
                                                                                   APPENDIX III


   Task Description           Intended Output              Status as of July 31,     Progressing
                                                                   2005                towards
                                                                                      intended
                                                                                       outputs

Task D.2 - Information   46 master trainers trained      54 master trainers had     Yes
and communication        (54 in the revised              been provided instruction.
technology training      implementation plan)
                         50 officials of the Institute   Activity was to be         Planned
                         for Teacher Training and        conducted August
                         Educational Development in      through December 2005
                         Baghdad trained
                         100 officials in regional       Activity was to begin in     Planned
                         teacher training centers        August. During a site visit
                         trained (See note 3)            to south central Iraq in
                                                         August, we viewed
                                                         computer classes in
                                                         session at the teacher
                                                         training institute. Creative
                                                         did not have the exact
                                                         number of teachers
                                                         trained as the program
                                                         was just getting
                                                         underway.
                         2,100 model school              Activity was to be           Planned
                         teachers trained (2,400 in      conducted July to August
                         the revised implementation      2005. Creative
                         plan)                           rescheduled the activity to
                                                         be conducted August
                                                         through December 2005.
                         2,700 students of the      Activity was to be              Deleted
                         teacher training institutesconducted September,
                         trained (See note 3)       November, and
                                                    December 2005
                         2,500 teachers of computer Activity was to be              Planned
                         science trained (5,400 in  conducted August to
                         the revised implementation December 2005.
                         plan)




                                                                                                18
                                                                                       APPENDIX III



   Task Description              Intended Output              Status as of July 31,     Progressing
                                                                      2005                towards
                                                                                         intended
                                                                                          outputs

 Task D.3 - Pedagogy        46 master trainers provided     Activity was to be         Planned
training                    with instruction (50 in the     conducted June 2005.
                            revised implementation          Creative rescheduled
                            plan)                           activity to be conducted
                                                            October 2005.
                            2,100 model school              Activity was to be         Planned
                            teachers trained (2,400 in      conducted July 2005.
                            the revised implementation      Creative rescheduled
                            plan)                           activity to be conducted
                                                            November to December
                                                            2005.
                            2,700 instructors for the       Activity was to be         Deleted
                            teacher training institutes     conducted July 2005
                            trained
                            26,000 teachers trained         Activity was to be         Planned
                            (17,600 in the revised          conducted November
                            implementation plan)            2005 to March 2006
Task D.4 - Management       48 master trainers provided     Activity was to be         Planned
skills training (Training   instruction with 5,000          conducted June and July
for secondary school        administrators receiving        2005. Creative
administrators)             cascade training (42 master     rescheduled the activity
                            trainers provided 3,000         for the January to April
                            administrators with training)   2006 timeframe.
                            Model school principals and Activity was to be             Deleted
                            supervisors trained          conducted December            See note 4 on
                                                         2004 to May 2005.             pg 22.
                            30 employees of the          Activity was to be            Deleted
                            Institute for Teacher        conducted October to
                            Training and Educational     December 2005
                            Development in Baghdad
                            trained
                            Staff of regional training   Date was not specified        Deleted
                            centers trained
                            Directors of training        Activity was to be            Deleted
                            participated in a study tour conducted in September
                                                         2005




                                                                                                 19
                                                                                  APPENDIX III



   Task Description           Intended Output            Status as of July 31,     Progressing
                                                                 2005                towards
                                                                                    intended
                                                                                     outputs

Task D.5 -               Feasibility study of capacity Feasibility study          Deleted
Strengthening capacity   augmentation at Institute for performed                  See note 5 on
of the Institute for     Teacher Training and                                     pg 22.
Teacher Training and     Educational Development
Educational              performed
Development
                         Institute for Teacher         Based on a feasibility     Yes
                         Training and Educational      study, the project
                         Development capacity          provided internet
                         strengthened                  connectivity and related
                                                       material support.
                         Feasibility study of capacity Feasibility study          Deleted
                         augmentation at regional      performed                  See note 5 on
                         teacher training centers                                 pg 22.
                         performed
                         18 halls in six training      23 halls in six training   Yes
                         centers rehabilitated (23     centers rehabilitated
                         halls in the revised
                         implementation plan)
Task D.6 - Measuring     Evaluation instrument         Instrument was in the      Yes
impact of training       developed to measure          process of being
                         training                      designed
Activity E - Procurement and distribution of school materials
Task E.1 - Establish    Committee established       Committee was formed          Yes
procurement committee
Task E.2 - Provide      Tenders awarded             Tenders were awarded          Yes
student supplies
                        Supplies tracked and spot   19 quality monitors were      Yes
                        checks performed            employed during the
                                                    process
                        525,000 school kits         504,458 kits were             Yes
                        distributed                 distributed. The
                                                    remaining kits were to be
                                                    distributed to model
                                                    schools.




                                                                                            20
                                                                                     APPENDIX III



   Task Description           Intended Output             Status as of July 31,       Progressing
                                                                  2005                  towards
                                                                                       intended
                                                                                        outputs

Task E.3 - Model         MOE involved in                MOE was involved in the      Yes
schools procurement      procurement and                procurement process          See note 2 on
                         distribution process                                        pg 22.
                         Science laboratory             Creative had met with the Yes
                         materials procured for the     MOE to determine             See note 2 on
                         84 model schools               equipment specifications. pg 22.
                                                        The actual request for
                                                        quotation was issued in
                                                        August.
                         Computer laboratory            Creative had met with the Yes
                         materials procured             MOE to determine             See note 2 on
                                                        equipment specifications. pg 22.
                                                        The actual request for
                                                        quotation was issued in
                                                        August.
                         School library materials       Creative was obtaining       Yes
                         procured                       input from the MOE on        See note 2 on
                                                        the list of books and        pg 22.
                                                        related reference
                                                        materials to be provided.
                         School desks procured          Creative had met with the Yes
                                                        MOE to determine             See note 2 on
                                                        equipment specifications pg 22.
Task E.4 - Coordination Coordination with other         Creative coordinated with Yes
with other donors       donors took place               UNICEF with regards to
                                                        the delivery of school kits.
                                                        UNICEF distributed kits to
                                                        primary schools, while
                                                        Creative distributed kits to
                                                        secondary schools.

Task E.5 - Information   Public information program     The MOE logo was             Deleted
campaign                 developed                      placed on the front of all   See note 5 on
                                                        bags of the school kits.     pg 22.
Task E.6 - Other         Other procurement such as This activity was to be           Deleted
procurements             school desks supported    conducted from April
                                                   2005 to May 2006
Task E.7 -               Procedures developed for       Creative had involved the Yes
Strengthening MOE        the acquisition of materials   MOE in designing the
procurement capability                                  contents of delivery and
                                                        receiving forms
Activity F - Refurbishment of Schools through Small Community Grants
Task F.1 - Form a        Grants evaluation              Committee was formed         Yes
grants evaluation        committee formed
committee
Task F.2 - Develop       Criteria for school selection Criteria were developed       Yes
criteria for school      developed
selection


                                                                                               21
                                                                              APPENDIX III


   Task Description           Intended Output         Status as of July 31,    Progressing
                                                              2005               towards
                                                                                intended
                                                                                 outputs

Task F.3 - Award 400     Up to 400 schools awarded 37 schools had been        Yes
school rehabilitation    grants                    awarded grants
grants
Task F.4 - Strengthen    Procedures developed to    Parent-teacher            Yes
community involvement    support parent-teacher     organizations were
                         organizations              involved throughout the
                                                    process of selecting
                                                    schools

Task F.5 - Develop       School rehabilitation      Database developed        Yes
school rehabilitation    database developed as part
database                 of the information system
Task F.6 - Audit and     An audit and evaluation    An evaluation was        Yes
evaluate completed       performed on a             performed at each
grants                   representative sample of   milestone before payment
                         the awarded grants.        was made
Task F.7 - Information   The public was made aware Activity was to be         Planned
campaign                 of the MOE/Creative       conducted at the
                         achievements              ceremonies reopening
                                                   schools

 Note 1 – All intended outputs marked as “deleted” were deleted in the revised
          implementation plan dated September 15, 2005.

 Note 2 – In the revised implementation plan dated September 15, 2005, the intended
          output was added or broken out from a combined intended output.

 Note 3 – Teacher training centers were regional centers that provided training for
          teachers already in the education field. Teacher training institutes were
          organizations that prepared people to become teachers.

 Note 4 – This intended output was deleted to avoid duplication as it was included in
          another area of the implementation plan.

 Note 5 – The intended output was deleted in the revised implementation plan, but the
          output had been achieved.




                                                                                        22
         USAID/IRAQ/RIG
          APO, AE 09316
Tel: (202) 216-6276, extension 1036
        Fax: (202) 216-6276
          www.usaid.gov
